Office of Inspector General

                    General  




          Audit of FMC’s 

      Transit Benefit Program 


              A13-01 





          November 2012


FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                   Washington DC 20573

                                       November 6, 2012

Office of Inspector General



Mr. Chairman and Commissioners,

The Office of Inspector General completed its review of the Commission’s Transit
Benefit Program. The audit objective was to assess the overall effectiveness of the
Program. Specifically, we evaluated whether (i) Department of Transportation invoices
accurately reflect the amount of subsidy being distributed to agency staff; (ii) benefits are
being properly reflected in the agency’s books and records and that adjustments are
properly accounted for; (iii) employees receive only the amount of subsidy authorized
under the program; and (iv) only eligible authorized agency staff receive a subsidy.
During FY 2011, the OIG identified 80 Program participants using public transportation.

The OIG found that the Commission has internal controls in place for the Transit Benefit
Program. The application and corresponding review processes were complete and
thorough. Benefit subsidies are based on home addresses, computed by Program
participants and verified by the Transit Benefit Coordinator before subsidies are
provided. The application is reviewed and signed by the Program participant, his/her
supervisor, the Transit Benefit Manager and the Managing Director.

Although controls are in place, we identified areas where improvements in Program
administration and oversight are possible. Currently, the transit benefits are computed
based on an eight-hour day, five day week, as it has been since program inception.
However, this formula does not match the numerous work-life benefits employees enjoy,
including alternative work scheduling and telework. As a result, many employees work or
commute less than 20 days per month. The OIG believes that the “one size fits all”
standard for computing transit costs should be revisited.

We identified duplicate payments to Program participants from our review of the monthly
reports for two months of our review period that should have been identified and
challenged. We also identified weak controls in the employee clearance process
regarding transit benefits. The OIG identified one program participant who continued to
receive benefits for three months after leaving the agency.

The OIG made five recommendations to address these needed improvements.
Management agreed with the recommendations and has identified actions it will take to
close each recommendation.
Details of these findings, and recommendations to address them, are provided in the
attached report. Management’s response is appended to the report in its entirety. We
thank the Office of Management Services for its assistance to us throughout the audit.



                                             Respectfully submitted,




                                             /Adam R. Trzeciak/
                                             Inspector General




                                            2
                             Audit of the Federal Maritime Commission’s
                                       Transit Subsidy Program


        The Office of Inspector General has completed the audit of the Federal Maritime
Commission’s (FMC or Commission) transit subsidy program (Program). The objectives of the
audit were to determine whether there are controls in place to monitor the transit subsidy
program and whether employees are adhering to Commission policy.


Background

        The transit subsidy benefit is an employer-provided benefit designed to encourage
employees to use mass transit for their home-to-work commute. Executive Order (E.O.) 13150,
Federal Workforce Transportation, dated April 21, 2000, implemented a transportation fringe
benefit Program for qualified 1 federal employees, not to exceed the maximum level allowed by
law. From March 2009 through December 2011, the maximum monthly commuting subsidy was
$230; however, this amount decreased to $125 in January 2012. Under E.O. 13150, federal
agencies in the National Capital Region 2 are required to have a transit pass fringe benefit
program.

        Office of Management and Budget (OMB) Memorandum M-07-15, Federal Transit
Benefit Program, dated May 14, 2007, provides guidance for agencies to use in establishing and
implementing internal controls over their respective programs. Commission Order (CO) 109,
Transit Benefit Program, dated April 21, 2010, establishes the FMC’s policies and procedures
for the Program, as well as agency and participating employee responsibilities.

        The Department of Transportation (DOT), Transportation Services (TRANServe),
administers the Program for Federal Government departments and agencies. Employees serviced
by the Washington Metropolitan Area Transit Authority (WMATA) receive their transit subsidy


1 FMC defines a qualified employee to include part-time, temporary and full-time employees, and paid and unpaid
interns. Contractors are not eligible to receive benefits at the FMC.
2
 E.O. 13150 defines the National Capital Region as the “District of Columbia; Montgomery, Prince Georges, and
Frederick counties in Maryland; Arlington, Fairfax, Loudoun, and Prince William counties in Virginia; and all cities
or hereafter existing in Maryland or Virginia within the geographic area bounded by the outer boundaries of the
combined area of said counties.”
benefits through “SmartBenefits,” which electronically uploads the dollar value of an employee’s
monthly subsidy directly to a SmarTrip card. SmarTrip cards are permanent electronic plastic
fare cards that can be used for bus and subway transportation services. Employees who use
commuting services that do not accept SmarTrip cards (e.g., commuter trains and buses) received
paper fare cards until recently. Currently, subsidies are uploaded through fare card machines for
WMATA users or onto a debit card for commuter train patrons.

        According to TRANServe records, there were between 80 and 90 FMC employees listed
as participants in the Headquarters transit subsidy program during fiscal years 2010 and 2011.
Annual Program benefits totaled $116,516 and $114,117, respectively 3 .


Objectives, Scope & Methodology

        The overall objectives of the audit were to determine whether (i) there are controls in
place to monitor the transit subsidy program and (ii) employees are adhering to Commission
policy. To address these objectives, we assessed whether (i) DOT invoices accurately reflect the
amount of subsidy being distributed to agency staff; (ii) the agency-paid transit subsidy was
properly reflected in the agency’s books and records and adjustments were properly accounted
for; (iii) employees were following Program guidelines when calculating their monthly subsidy
request and receive only the amount of subsidy authorized under the Program; and (iv) only
eligible, authorized agency staff receive a subsidy. During FY 2011, the OIG identified 80
Program participants using the following forms of public transportation:




3
 FMC employees are serviced by the WMATA, Maryland Transportation Administration MARC train, Virginia
Railway Express, vanpools and local jurisdiction buses. Commuter bus recipients received their benefits through
paper media.



                                                        2
                           Table 1. Commuter Methods of Transportation

                          Method of Transportation               Number
                     Commuter Train (MARC, VRE)                     19
                     WMATA (includes transit bus)                   55
                     Commuter Bus                                    3
                     Vanpool                                         1
                     Application Missing in File                     2
                     TOTAL                                          80




       We discussed Program implementation with Office of Management Services (OMS)
staff, including its process for reviewing and approving applications, and steps taken to verify
transit subsidy claims. We also discussed OMS reviews of DOT TRANServe monthly and
quarterly reports, including how these reports assist OMS in managing the Program.
TRANServe reports include the following:

       Alphabetical (Alpha) Listing of All Participants – A monthly report that
       identifies the employee’s name, duty station, telephone number, monthly subsidy
       and withdrawal date (if applicable) from the Program for current and former FMC
       employees.

       Monthly Fare Disbursements Report – The report identifies current employees
       participating in the Program and the amount of the transit benefit each receives.

       Customer Statements – This monthly statement includes the annual transit
       agreement total, quarterly Intra-Governmental Payment and Collection (IPAC)
       against the agreement, agreement balance and annual collection totals. In
       addition, the statement includes monthly amounts billed to the agency.




                                                 3
           Account Activity Statement – A monthly statement identifying the transit
           benefit billed, management fee 4 , distribution services fee 5 , credits (if applicable)
           and subsidy totals.

           Quarterly IPAC Statement – This statement is used to authorize
           collection/credits for the Program between DOT and the Commission. It is used
           by the Transit Benefit Coordinator (TBC) to approve fund transfers.

           We reviewed annual intra-agency agreements for fiscal years 2010 and 2011 to better
understand DOT TRANServe and FMC obligations and responsibilities. We reviewed FY 2010
and FY 2011 Program requisitions and purchase orders to ensure funds were appropriately
obligated and to assess timeliness of the obligations. We reviewed TRANServe invoices for
accuracy and to ensure payments were properly reflected on the agency’s books and records. We
traced deobligated amounts (unused funds) back to the agency to identify whether these funds
were used within the proper fiscal year or returned to the U.S. Treasury.

           We reviewed OMB and FMC policies, including CO 109, Transit Benefit Program, dated
April 21, 2010, and OMB M-07-15, Federal Transit Benefits Program, dated May 14, 2007, to
identify the FMC benefit coordinator and staff responsibilities and to assess compliance with
program requirements.

           We obtained a listing of separated staff from the Office of Human Resources (OHR) for
fiscal years 2010 and 2011 for comparison with TRANServe’s Alpha List of all participants and
the Monthly Fare Disbursement Reports to determine whether employees were removed from
the Program timely and to verify that no benefits were paid to former employees. We reviewed
Form FMC-25, Employee Clearance Statement, to determine whether Program participants were
properly identified. We also used information collected to help us verify whether separating
employees with outstanding subsidy balances reimbursed the agency prior to being cleared.

           We reviewed Forms FMC-123, Application for Transit Benefit, to determine whether
applications for transit benefits were complete, accurate and appropriately authorized. We

4
    This includes transit benefits billed and other costs for the program.
5
    This amount is the agreed upon amount executed through the annual interagency agreement.


                                                         4
conducted tests for a sample of 17 employees to verify whether subsidy claims were consistent
with home addresses. We also determined whether employees made adjustments to their
monthly subsidies when on extended leave or travel, as required in CO 109.

           We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


Audit Recommendations and Findings

           The Commission has internal controls in place for the transit benefit program through the
implementation of policies and procedures identified in CO 109. The application and
corresponding review processes were complete and thorough. Benefit subsidies are based on
home addresses, computed by Program participants and verified by the TBC before subsidies are
provided. 6 The application is reviewed and signed by the Program participant, his/her
supervisor, the Transit Benefit Manager (TBM), TBC and the Managing Director. The TBC also
maintains a list of all Program participants with their commuting costs for easy reference.

           Although controls are in place, we identified areas where improvements in program
administration and oversight are possible. Program participants, not the TBC, should be
responsible for documenting transit costs. Employees work shortened weeks, telework and
maintain a variety of work schedules (flexible arrival and departure times). Employees are in the
best position to know these variables and should document deviations from the standard five-day
week, eight hour day, because these deviations often impact commuting costs. While employees
are asked to identify their commuting costs, it is the TBC who supports (i.e., documents) the
claim. Since the TBC is not familiar with each employee’s work hours, alternative work
schedule or telework arrangement, the “one size fits all” theory for computing transit costs (20-
day month, eight hour day), should be revisited.


6
    The TBM is also the agency’s Contracting Officer and the Director of Office of Management Services.



                                                          5
        The TBC should play a proactive role in identifying costs/refunds associated with the
Program by closely reviewing the TRANServe monthly reports. Because funds are obligated for
the program, DOT simply “IPACs” 25 percent of the annual agreement every three months.
During the program period, the agreement overestimated actual expenses by $23,039 and
$42,860 for fiscal years 2010 and 2011, respectively, or 22 percent of program obligations. The
TBC should work with DOT to make the adjustment in the last quarter, netting funds “IPAC’d”
to TRANServe against prior month overages. This would enable the FMC to better estimate the
amount of unused funds and to better plan for the use of the funds over the final three months of
the fiscal year, instead of scrambling to obligate unused transit funds in the final days of the
fiscal year.

        We also identified duplicate payments to Program participants from our review of the
monthly reports for two months of our review period. These duplicate payments should have
been identified and challenged. Even though the amounts were not substantial ($812 and $120),
there is no guarantee that overpayments could not occur again at substantially higher amounts.
Only a dedicated review would catch them.

        We identified weak controls in the employee clearance process regarding transit benefits.
Currently, it is the separating employee who controls whether unused transit benefits are
reimbursed to the agency as required by Commission Order (CO), as no independent verification
is made of amounts outstanding by the TBC.

        Details of these and other findings are provided below.

        Finding 1. Internal Controls are in Place for Review of Subsidy Applications

        Commission Order 109, Transit Benefit Program, dated April 21, 2010, establishes
policy and identifies agency and employee responsibilities for administering and participating in
the Program. According to OMB Circular A-123 Management’s Responsibility for Internal
Control, dated December 21, 2004, documented policies and procedures form the foundation of
program controls by ensuring all staff is familiar with how the Program should operate.




                                                  6
       To participate in the Program an employee must complete Form FMC-123, Application
for Transit Benefit. This form requires employees to identify their name, assigned office, the last
four digits of their social security number, home and work address, mode of public
transportation, and daily and monthly commuting costs. The application is certified and dated by
the employee, signed and dated by the supervisor, certified by the TBM (that the employee met
the Program requirements) and approved by the Managing Director (four signatures).

       As part of the TBC’s review process, information from the pertinent transit authority
website is downloaded, based on responses on the application to verify an employee’s
commuting costs and submitted to DOT TRANServe for activation of the monthly transit
benefit.

       Although the review process is thorough and follows documented procedures, we noted
that each application requires four signatures before it is sent to DOT for final processing. The
final review by the agency’s Managing Director, the agency’s top administrative and program
officer; seems to us to be unnecessary. Although the four-layer review process did not appear to
cause delays or require significant time to perform, it is unclear what value is added by the
Managing Director’s review that has not already been added by the supervisor and the TBM
during their review. Although we are making no recommendations in this area, we suggest that
the Office of Managing Director reconsider whether this final review is necessary.

       Finding 2. Program Participants should be Required to Support Commuting Cost
                    Claims

       The computation of the employees commuting cost is the first step in budget planning
and execution for the transit subsidy program. If commuting costs are incorrectly determined,
then employees will be either over or under subsidized and agency payments to DOT will not
reflect the true Program costs. One control used to ensure that subsidy claims accurately reflect
true costs is the worksheet used by the TBC when verifying employee claims.

       The process has several steps. First, employees are required to identify their commuting
costs on the benefit application without support for the claim. Many employees who use mass
transit daily know the fare amounts. WMATA also provides users with information on its


                                                 7
website that identifies fares between station stops adjusted for rush hour and non-rush hour travel
times. Once the application is complete and signed off by the applicant and the supervisor, it is
reviewed by the TBC for accuracy and completeness. An important component of the TBC’s
review is the verification of the employee’s commuting cost.

       Next, the TBC verifies commuting costs by visiting applicable mass transit websites to
compute fares based on information provided by the employee on the application. For
employees that use WMATA, the TBC generally uses 7:30 am start and 4:30 pm departure times
to verify the employee’s commute and associated costs, even though the TBC does not know the
actual start and departure times for employees participating in the Program. This estimate is
important for WMATA subway users because of WMATA’s three tier fare approach (non rush,
peak, and peak-of-the-peak) in effect during fiscal years 2010 and 2011. Further, the TBC does
not include telework in his computations, assigning all participants a 20-day per month subsidy.

       Once the daily amount is computed, the TBC uses the 20-day criterion to calculate the
employee’s monthly subsidy. Form FMC-123, Application for Transit Benefit, requests
employees to identify their actual methods and costs of public transportation between work and
home. It does not request telework or arrival/departure times. Nor are employees asked to
include support for the daily commuting cost.

       Rather than requiring the TBC to provide this work-up with incomplete information,
employees are in a better position to identify actual commuting patterns. We believe that all
benefit participants should be required to affix proof in the form of website cost computations
when the application is submitted. OMB M-07-15, Federal Transit Benefits Program, notes that
“some agencies require employees to affix a copy of a complete Washington Metropolitan Area
Transit Authority on-line Trip Planner, which employees can use to determine the participant’s
actual daily, and then monthly, public transportation costs.” We also believe that the subsidy
form itself should reflect the hours worked; alternate-work-schedules (AWS) and telework
arrangements and be applied to new Program participants or during the re-certification process,
whichever comes first.




                                                8
           The OIG verified the commuting costs of 78 subsidy participants using identical mass
transit websites to those used by the TBC. We noted the TBC made adjustments to subsidy
claims and these adjustments did not always agree with OIG calculations. For example,
calculations performed by the TBC on claims submitted by 31 percent of WMATA users (17 of
55) did not agree with the OIG calculations of the trip costs. Regarding discrepancies between
OIG and TBC calculations, the TBC speculated the differences resulted from either confusion
over peak-of-the-peak 7 charges and/or which station is used to enter or exit the subway system,
for those Program participants who commute by subway. For example, peak fares and “peak-of-
the-peak” fares vary by as much as $8/month for commutes between Shady Grove Road and
Union Station. By using the “peak-of-the-peak” premium fare, participants could have been over
subsidized if their commute fell within the peak times.

           Employees also have options when using subway stations and buses in route to work or
home. These options also added to discrepancies we found. For example, most employees exit
the subway at Union Station and walk the approximate three blocks to work. Other employees
exit at Gallery Place and take a bus to the Headquarters building, eliminating any need to walk.
The OIG could not find any requirement that employees take the least expensive commute route,
as this latter route added approximately $20 per month to the subsidy. However, we also
identified three individuals who claimed to exit at Gallery Place (and received a larger monthly
subsidy) on the application but, when queried by the OIG, told us that they traveled to Union
Station and walked to the headquarters building.

               Recommendation 1. We recommend that transit benefit applicants affix supporting
               documentation from mass transit calculators on the internet to the transit application
               when applying for benefits.

               Recommendation 2. We recommend that the Transit Benefit application be revised
               to factor in work schedules (AWS, telework) and arrival/departure times for new
               participants or during the next re-certification for all participating employees.




7
    Peak-of-the-peak period is weekdays from 7:30 – 9:00 am and 4:30 – 6 pm based on the starting time of the trip.


                                                           9
        Finding 3. Monitoring Program’s Funds

        DOT TRANServe enters into an annual agreement that outlines DOT’s and FMC’s
responsibilities for the Program and identifies estimated costs. For FYs 2010 and 2011, the
agency agreed to participate in the Program at estimated costs of $139,554.00 and $156,985,
respectively (amounts before any adjustments). 8

On the budgetary side, the FMC establishes an obligation for the Program year based on
participation estimates and DOT fees at the beginning of the year. DOT “IPACs” the FMC for
one quarter of the amount every three months at the end of each quarter. 9 Funds unused in the
Program due to lower than expected participation rates are turned back to the agency for use in
other areas, but not until fiscal year end. The OIG’s concern is that, given the timing of these
refunds, the agency has little time to plan for their optimal use. The following table shows the
timing of IPACs for fiscal years 2010 and 2011.




8
  Estimated costs shown above differ from actual coasts as identified on page 2 of this report.
9
  An IPAC provides a standardized inter-agency fund transfer mechanism for federal agencies and facilitates the
intra-governmental transfer of funds, with descriptive data from one agency to another.


                                                        10
       Table 2. Fiscal Year 2010 & 2011 IPAC Payments

                2010 IPACs                                  2011 IPACs

COR’s Approval Date          Amount                  COR’s Approval Date          Amount
December 18, 2009            $34,888.00              November 19, 2010            $39,245.00
January 21, 2010             $34,888.00              December 31, 2010            $28,480.31
March 23, 2010               $34,888.00              January 31, 2011             $10,764.69
June 15, 2010                $34,890.00              April 30, 2011               $27,465.50
September 28, 2010        ($22,208.61)               May 31, 2011                  $1,000.00
December 29, 2010             ($828.99)              June 30, 2011                $36,303.27
TOTAL                      $116,516.40               August 31, 2011            ($12,358.70)
                                                     September 30, 2011         ($16,502.92)
                                                     September 30, 2011         ($16,502.92)
                                                     March 31, 2012                 ($279.74)
                                                     TOTAL                       $114,117.41



       For FY 2010, DOT “IPAC’d” the agency two refunds that totaled $23,037.60. The
refunds were provided to the agency on September 29, 2010 (one day before the end of the fiscal
year) for $22,208.61 and December 29, 2010 ($828.99).

       In FY 2011, three refunds occurred for a total of $29,141.36. Refunds were provided on
August 31, 2011 for $12,358.70; September 30, 2011 for $16,502.92 (last day of the fiscal year):
and March 2012 for $279.74. These refunds were for quarterly benefit advances “IPAC’d” by
the FMC to DOT during the year.

       Refunds received during the final days of the fiscal years totaled $38,712. Knowing in
August or even early September the amount of funds that would be available would better enable
the agency to plan for the use of these funds in an efficient manner. The Director of the Office
of Budget and Finance told the OIG that the agency cannot deobligate funds until it receives
notification from DOT concerning excess funds. DOT officials confirmed that in FYs 2010 and



                                                11
2011, they did not have procedures in place permitting DOT to make adjustments to the account
before it IPAC’d the agency. Since then, DOT has implemented procedures making these
adjustments in the 4th quarter possible which, according to DOT, should reduce or eliminate
large refunds near fiscal year end or thereafter. For this reason, it is imperative that the agency
track the actual use of funds each month so that it is able to estimate its year-end refund and be in
a better position to use the funds wisely.

       On the accounting side, two reports provided to the FMC by TRANServe, the Monthly
Fare Disbursement Report and the Account Activity Statement, provide information on benefits
issued by participant and a list of fees, credits and miscellaneous charges applied to FMC’s
account. Importantly, these statements also provide the detail needed to manage the Program,
specifically to monitor funding to identify surpluses during the Program year so that funds can be
deobligated and used to meet other agency needs timely. The invoice should be reviewed to
ensure that amounts billed reconcile to employee participation for the month, i.e., that the agency
is not being over or under billed. At the FMC, it is the responsibility of the TBC to monitor
monthly reports and to obligate and deobligate funds when appropriate.

       During our review of FYs 2010 and 2011 activity, we reviewed two reports that
identified duplicate benefit payments that were charged to the agency by DOT and paid. We
also identified one instance where an IPAC was sent to DOT without sufficient funds obligated
in the account to cover the transfer.

       Duplicate payments are a problem because the agency pays twice for the same service.
In the case of benefits, the Monthly Fare Disbursement Report identified individuals receiving
more than their entitled share in October 2009 and December 2010, increasing Program costs
and using funds that could go to meet other agency needs.

       In October 2009, six employees were disbursed duplicate transit benefit amounts totaling
$812.00, and ranged from $66.00 - $180.00 per employee. Duplicate benefits were made to one
employee again in December 2010, totaling $120.00. These payments were identified on reports
provided to the agency by TRANServe but were not questioned by OMS staff. The TBC told us
that he reconciles the IPAC statements with the monthly costs – both statements prepared by



                                                 12
TRANServe. OMS told the OIG that it suspects a computer glitch during that time could have
resulted in multiple transit benefits amounts being reported. No funds were returned to the
agency by any employee during this period. OIG provided specific information to the TBC at the
exit conference for follow up.

       We next reviewed purchase requisitions, purchase orders and IPAC statements for the
same period to determine if obligating documents were in place before acceptance (approval) of
the IPAC Statement. In FY 2010 and FY 2011, there were four and eight modifications,
respectively, to the purchase order to increase or decrease funds.

       We found only one instance where OMS approved an IPAC statement for funds in excess
of amounts set aside (obligated) by the agency. The initial purchase order was signed on
October 29, 2009 for $11,630.00 and was modified on November 19, 2009 by adding $18,996.00
to the amount available (new total for the Program was $30,626.00). The TBC approved the first
IPAC statement against this obligation on December 18, 2009 for $34,888.00, $4,262.00 more
than the obligating document.

           Recommendation 3. We recommend that the TBC monitor Program costs closely
           using DOT monthly reports to calculate the amount of funds to be refunded by DOT
           at year end to better enable the agency to plan for their optimal use.

           Recommendation 4. We recommend the TBC ensure that all IPAC funds are
           supported with valid obligating documents.

       Finding 4. Controls Need to be Strengthened over Checkout of Transit Participants

       Commission Order 109, Transit Benefit Program, identifies responsibilities for
employees leaving (separating from) the Commission who also participated in the Program.
According to CO 109, separating employees should notify the TBC as part of the check out
process and return unused vouchers or tickets. An employee receiving SmarTrip benefits should
not claim the monthly benefit if there is a balance sufficient for the employee’s final month. The
OIG obtained a listing from OHR of employees who left the agency in FYs 2010 and 2011 and




                                                13
the respective Employee Clearance Statement (FMC-25). Twenty-four (24) employees separated
from the agency; 19 participated in the Program.

       We reviewed the monthly reports of the Alpha Listing and Monthly Fare Disbursement to
determine if these employees received benefits after their separation date. The Alpha Listing is a
cumulative report that provides information on all current and former FMC staff that participated
in the Program along with the date an employee withdrew from the Program. The Monthly Fare
Disbursement Report provides information on the transit amount disbursed to the employee for
the month.

       Of the 19 separated employees, the OIG found one employee who continued to download
transit benefits after leaving the agency. For three months, January 2011 – March 2011, the
employee was disbursed transit benefits after he separated from the Commission in December
2010. The disbursed amounts appeared in the Monthly Fare Disbursement Reports after his
departure, which showed that the agency was billed for $248.25. The employee was eventually
removed from the Commission’s Program in April 2011. The OIG provided the name and
relevant information to management for follow-up.

       When removing an employee from the transit benefit participant list, the process relies on
the participant, rather than on technical controls, to ensure benefits are not downloaded. To
remove an employee from the benefit list, the TBC must notify TRANServe of the separation.
TRANServe then cancels access to benefits. The TBC also updates his internal participant list
and reviews the Alpha Listing at the end of each quarter to verify that the employee withdrew
from the Program. By waiting to verify removal for up to three months, the employee identified
above was able to continue downloading benefits. We could not determine whether the FMC
was slow to notify DOT of this employee’s departure or if DOT was slow to act once
information was provided.

       Importantly, any employee separating from the agency could continue to download
benefits until his/her name is removed from the benefits list, including the remaining 18
employees in our sample. We verified that none did, but note that these employees remained on




                                                14
DOT’s Alpha Listing as an active participant between two and nine months. This remains an area
of vulnerability for the Program.

       Another concern identified during our review was the apparent laxity of the check out
process for transit subsidy participants. Form FMC-25, Employee Clearance Statement, contains
a checklist of Commission offices and functions each employee must visit prior to leaving the
agency to ensure that no outstanding debts are owed and all agency-provided equipment is
accounted for. Included on the checklist is “transit benefit payment.” The purpose of this check
is to determine whether an employee participated in the Program and is in possession of unused
transit benefits. For the 19 separated employees in our review, no benefits were returned.

       On the other hand, we noted that the clearance statements did not always identify the
correct information about an employee’s participation in the Program. For example, for the five
employees that did not participate in the Program two (2) employees were nevertheless cleared
from the Program. The other three (3) employee’s clearance statements were correctly annotated
as “not applicable.” For the 19 employees that participated in the Program, the clearance
statements contained correct information for 16 employees; the remaining three employee
clearance statements indicated non-applicable. With this response, the agency could have missed
subsidies owed to the agency.

       It appears that, in some instances, OMS staff cleared employees from the Program
without verifying the employee’s participation in the Program, including whether any
outstanding transit benefit balances were owed. OMS staff told us that it has no way to
determine whether an employee has an excess balance in their transit account, other than to
simply ask the employee. However, DOT TRANServe told the OIG that this information is
available from DOT, even though it is not included in their monthly reports. We do not envision
this step for all departing employees, e.g., those separating at the end of a month. However
employees separating just after the start of a new month should be considered.

       Recommendation 5. The OIG recommends that OMS contact DOT to identify the
       amount of the last download to validate that funds are not owed to the agency. This
       added step could be used for employees separating before the middle of the month.



                                               15
           Finding 5. Adjustments Were not Made to Transit Subsidies for Leave or Other
                     Extended Absences

           Commission Order 109, Transit Benefit Program, identifies steps employees are required
to take to reduce subsidies when extended absence is anticipated. Such absences include
business travel, and annual or sick leave. For example, each employee is required to notify the
TBC in the event of any extended absences so that the TBC will be aware of any possible
adjustments to fare disbursed the following month. OMB’s M-07-15, Federal Transit Benefits
Program also addresses adjustments to commute due to travel, leave, or change of address.

           We judgmentally selected employees that used WMATA for their commute to and from
work to determine whether any adjustments were made to their commute during the months of
June 2010 through January 2011 (8-months). These months were selected because they coincide
with when most employees use leave (vacations, holiday leave, and/or “use-or-lose” at year end).

           We used the Monthly Fare Disbursement Reports for amounts disbursed to each
employee. We reviewed employee time and attendance reports for days of leave taken and their
documents for travel and training that occurred outside of the Washington Metropolitan area.
This information was selected to provide a snapshot of the number of days the employee would
not use the transit benefit and compared the information with the fare disbursed for the month.

           Through this analysis we found that employees generally did not make any adjustments
to their commuting costs when they had multiple days off (5 – 10 days), within a month. There
were only two instances where adjustments to the employee’s commuting costs appeared to
occur which was in September 2010 and January 2011, saving the agency approximately ninety
dollars.

           Even though the new WMATA system swipes excess transit benefits at the end of the
month, employees are still able to use unused subsidies on weekends and after hours. No
recommendation is being made but employees are to be mindful of this requirement in CO 109,
while participating in the Program.




                                                 16
Summary

       The transit benefit program has undergone changes since the period of our audit that
strengthens controls over abuse of Program funds and aid Program administration. Although our
findings pertain to fiscal years 2010 and 2011, we focused on Program attributes and
management oversight that are still applicable today.

       We believe that the TBC is doing a good job managing the overall Program. His office
has implemented policies and procedures for staff to follow when participating in the transit
benefit program. There are controls in place with the submission of the application to obtain
benefits; to verify each employee’s commute; to monitor the Program’s funds and to remove an
employee from the Program. Notwithstanding, we believe that the application process suffers
from too many layers of review. We counted five layers of review for each application approval.

       One of our biggest concerns is the application itself. The application bases the employee
subsidy on a 20 day month, eight hour day work schedule for all employees. Most FMC
employees participate in the alternative work schedule (AWS) program, working as few as 15 –
17 days per month. Further, the agency, following executive branch guidelines, has permitted
staff to participate in a work-at-home program, further reducing commuting costs. As a result,
the agency may be over subsidizing many of its employees.

       The new Program has enabled the TBC to track obligations and to identify surplus funds
in time to use them to meet other Commission needs. Although most excess funds were used by
the agency during the period of review, often the agency was not aware of exact amounts until
the final days of the fiscal year. These funds, tens of thousands of dollars, were then spent, often
within hours of the fiscal year end. DOT’s new fund tracking capabilities make it easier to spot
surpluses earlier in the year and to net last months’ payments against the surplus. But the TBC
must be diligent and closely review monthly participation lists. We identified both duplicate
payments and, in one instance, payments to one former employee that lasted three months.

       Finally, the check out, the last avenue to reconcile outstanding benefits with departing
employees, needs to be tightened. The TBC relies on employee assertions regarding the
existence of surplus benefits. For employees leaving early in the month, before they’ve had the


                                                 17
opportunity to use the bulk of the benefits, the TBC should independently verify with DOT,
funds remaining in the separating employee’s transit account before signing off on the check out
form.




                                               18
NITED STATES GOVERNMENT                                                    FEDERAL MARITIME COMMISSION

Memorandum
TO              :    Inspector General                                     DATE:  November 1, 2012 
 
THROUGH  :  /Managing Director/ 
 
FROM            :  Director of Management Services 
 
SUBJECT         :     Audit of the Federal Maritime Commission’s Transit Benefit Subsidy Program 
 
 
         OMS has reviewed the audit report covering the Transit Benefit Subsidy Program (TBS) for fiscal 
years 2010 and 2011.  It should be noted that the TBS has gone through major changes over the past 
three fiscal years, with those program changes correcting many of the findings.  For example, the report 
notes  that  the  program  overestimated  actual  expenses  during  fiscal  years  2010  and  2011.    Those 
estimates,  however,  were  a  direct  result  of  DOT’s  formula,  which  the  FMC  was  required  to  use  in 
estimating our projected program participation.  We had estimated a lower amount, but DOT mandated 
that we use the higher figure cited in the report, given our FTEs.  DOT has now improved its calculations 
of historical usage, however, resulting in fiscal years 2012 and 2013 estimates that are now more in line 
with our actual usage. 
          
         The duplicate payments the report notes in finding 3 were not really duplicate payments.  They 
actually  reflect  DOT’s  revisions  to  the  program  in  fiscal  year  2010.    Starting  in  fiscal  year  2010,  DOT 
provided  the  option  to  program  participants  to  either  continue  receiving  Metrocards  or  to  download  
their  subsidies  via  Smart  Benefits.    Per  DOT,  the  six  participants  identified  received  their  subsidies  for 
the month of September 2009 in the form of Metrocards.  The transaction date shown for this action 
was  October  1,  2009.    Also,  during  October  2009  each  of  the  six  downloaded,  via  Smart  Benefits,  the 
same  amount  for  their  October  subsidy.    Per  DOT’s  records,  confirmed  by  emails  of  10/31/2012  and 
11/1/2012,  none  of  the  six  participants  specified  in  the  audit  report  actually  received  multiple  or 
duplicate payments.   
          
         OMS comments with regards to the OIG’s recommendations are noted below. 
 
Recommendation  1.    The  OIG  recommends  that  transit  benefit  applicants  affix  supporting 
documentation from mass transit calculators on the internet to the transit application when applying 
for  benefits. 
 
Response:      OMS  will  revise  the  application  process  to  require  program  applicants  to  provide 
documentation  to  support  their  requested  transit  benefit  amount,  while  continuing  to  verify  that  the 
supporting  documentation  provided  is  accurate  by  performing  its  own  analysis.    The  targeted 
implementation date for this new procedure is January 31, 2013. 
 
 
Recommendation 2.  The OIG recommends that the Transit Benefit application be revised to factor in 
work schedules (AWS, telework) and arrival/departure times for new participants or during the next 
re‐certification for all participating employees. 
 
Response:  OMS will revise the current application to obtain more detail from applicants ‐‐ to include 
work hours, whether they have a regular 8‐hour day, 9 or 10‐hour Alternative Work Schedule, regularly 
scheduled  telework  day,  etc.,  thereby  accounting  for  these  days  to  ensure  that  the  proper  benefit 
amount is being allocated to each participant.   The target implementation date for this new procedure 
is January 31, 2013. 
 
 
Recommendation  3.    The  OIG  recommends  that  the  TBC  monitor  program  costs  closely  using  DOT 
monthly reports to calculate the amount of funds to be refunded by DOT at year end to better enable 
the agency to plan for their optimal use. 
 
Response:  Starting in fiscal year 2012, at the end of each  month DOT  credits back to  the agency any 
unused funds.  However, payment is not received until the end of the fiscal year, in the form of a lump 
sum  refund.    The  TBC/COR  will  closely  monitor  participant  usage  each  month  via  the  monthly  reports 
provided by DOT and recommend adjustments to the Inter‐Agency Agreement as needed.   
 
 
Recommendation 4.  The OIG recommends that the COR ensure that all IPAC funds are supported with 
valid obligating documents. 
 
Response:   Effective immediately the TBC/COR will require that all IPAC funds are supported with valid 
obligating documents before payments are approved.   
 
 
Recommendation 5.  The OIG recommends that OMS contact DOT to identify the amount of the last 
download (made by separating employees) to validate that funds are not owed to the agency.  This 
added step could be used for employees separating before the middle of the month. 
 
Response:    The TBC/COR currently sends DOT an e‐mail at the time of a participant’s separation from 
employment with the FMC.  However, OMS will revise the current process and require the TBC, to the 
greatest  extent  possible,  provide  DOT  the  separation  date  for  participants  in  advance  of  their  actual 
separation date.  The targeted implementation date for this new procedure is January 31, 2013.   
 
Also,  please  note  that  the  term  “download”  no  longer  applies.    Effective  December  1,  2011,  DOT 
implemented  “autoload.”    Under  the  autoload  process,  all  transit  purse  benefits  are  now  available  to 
participants only for use during the applicable month.   Any amount not used by the end of the month is 
credited back to the FMC.   
  
         If you have any questions regarding the above responses, please let me know. 
 
 
 
                                                              /Michael H. Kilby/ 
 




                                                         2 
 
